Supreme Court. U.S.
FILED

JUN 2 9 202!
CASE NO.
IN THE SUPREME COURT OF THE UNITED STATES

DEATH PENALTY CASE

ANTONIO S. FRANKLIN
PETITIONER-APPELLANT
VS.
TIM SHOOP
RESPONDENT-APPELLEE

ON PETITION FOR WRIT OF CERTIORARI TO
THE SIXTH CIRCUIT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI

ANTONIO S. FRANKLIN
#363-374
C.C.I.
P.O. BOX 5500
CHILLICOTHE, OHIO 45601
PETITIONER, PRO SE

OFFICE OF THE CLERK

;

*f

•*£

»>

k
■«

THIS IS A CAPITAL CASE

QUESTIONS PRESENTED FOR REVIEW
1. Though completely forsaken by the protections of the Sixth Amendment by the time
ive at the federal appellate courts, does either the Eighth or
state appellate inmates arrive
the Fourteenth Amendments “protect” said inmates from being subjected to an
apparently faulty appellate process due (in part) to ultra-egregious, ineffective
counselors?
2. Is it cruel and unusual punishment to have a magistrate judge “exercising ‘plenary
power” render absurd, yet binding oxymoronic decisions (that undoubtedly impedes a
petitioner’s path towards justice) to which the Sixth Circuit refuses to acknowledge
and/or overturn?
3. Are “continual,” blatant violations against an a ppellant’s Eight and Fourteenth
Amendment Constitutional Rights severe enough violations to justify deviation from
the “final judgment rule” of 28 U.S.C. §1291 in the Federal Courts?
4. Are the Eight Amendment Rights (against cruel and unusual punishment) and the
Fourteenth Amendment Rights (for due process and equal protection) constitutionally
sound enough to guard against an indigent inmate having the entirety of his federal
appellate process rendered useless — notwithstanding the fact that said indigent inmate
had vigorously endeavored to avoid such a dire predicament?
5. If it’s proven beyond a reason of a doubt that assigned counsel is derelict; the magistrate
judge “exercising plenary power,” and as such having “final authority ’ in his case, has
been grossly “judicial derelict” throughout the handling of Petitioner’s appellate
process; and the two entities (whether working together or not) had a synergistic, yet
detrimental effect on Petitioner’s entire federal appeals to the result of “an aborted
appellate process”; yet, the Sixth Circuit observed “all,” but did “nothing” to effect
justice and provide balance and equity; does these violations of Petitioner’s Eighth and
Fourteenth Amendment Rights entitle him to appeals anew?

LIST OF ALL PARTIES
[X]

All parties appear in the caption of the case cover.

TABLE OF CONTENTS

Questions Presented

i

u

List of Parties

ii & *

Table of Contents

Index to Appendices

in

m-iv

Table of Authorities Cited

Statutes and Rules

IV

Opinions Below

I

Jurisdiction

1

Constitutional and Statutory Provisions Involved

1-2

Statement of the Case

2-5

5-40

Reasons for Granting the Writ

ii

38-40

Conclusion

INDEX TO APPENDICES

APPENDIX “A”

Decision of the United States Court of Appeals for the Sixth Circuit

APPENDIX “B”

Decision of the District Court striking Motion for Reconsideration

APPENDIX “C”

Decision of the United States District Court for the Southern District of Ohio

APPENDIX “D”

Letter from Petitioner’s Lead Attorney, Ms. Adele Shank, (dated June
5, 2009) REFUSING Petitioner’s “request to file for Certificate of
Appealabilities (COAs)” when he requested them to

APPENDIX “E”

Consent to Magistrate Judge Jurisdiction (signed ONLY by Ms. Adele Shank)

APPENDIX “F”

Letter to the Sixth Circuit Requesting a “Change of Counsel”

TABLE OF AUTHORITIES CITED

CASES:

Cohen v. Beneficial Indus. Loan Corp.. 337 U.S. 541

34

Deshaney v. Winnebago County Pep1! of Social Services. 489 U.S. 189

22

Estelle v. Gamhle. 429 U.S. 97

7

35

Evitts v. Lucey. 469 U.S. 387

iii

Franklin v. Bnulsliaw. 2009 U.S. Dist. LEXI S 23715

8-14, 24, 26

Franklin v. Robinson. 2013 U.S. Dist. LEXIS 27532

18

Franklin v. Warden. Cliillicotlic Corr. Inst.. 2016 U.S. Dist. LEXJS 40391

18

34-36

Holland v. Florida. 560 U.S. 631

31

Martel v. Clair. 565 U.S. 648

Mickcns v Taylor. 535 U.S. 162

30,31

NLRB v. Talsol Corp.. 155 F.3d 785

15, 23

6, 7, 22, 23, 34

Rhodes v. Cliapman.452 U.S. 337

6, 34

Ross v, Moffitt. 417 U.S. 600

18

Slate v. Murnahan. 63 Ohio St. 3d 60

7,16, 22,23, 34

Wilson v. Scitcr. 501 U.S 294

7

Wliitlev v. Albers. 475 U.S. 312

United States v. lies. 906 F.2d 1122

32

United States v. Taylor. 487 U.S. 326

32

STATUTES AND RULES

28 U.S.C. § 1254
18 U.S.C. §3599

IV

Table of Contents
OPINIONS BELOW........................................................................................

1

JURISDICTION..............................................................................................

1

*** JURISDICTION OF THIS COURT IS INVOKED UNDER 28 U.S.C. § 1254(1) * * *

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.........................

1-2

1.

2-5

STATEMENT OF THE CASE

5-38

2.

REASONS FOR GRANTING THE PETITION

3.

The Due Process Clause, Equal Protection Clause, And The Right To Be Free From Inflection Of Cruel
6
And Unusual Punishment During The Appellate Process:............................................

4.

The Eighth Amendment And Its Protections From Cruel & Unusual Punishment:......

7-22

5.

Petitioner's "Current" Motion to Discharge Counsel:...................................................

22-29

At Least Two Claims of Tremendous Merit That Were Denied on a "Mistaken Basis":

24-29

I-A-C - Failure to Present Evidence to Jurors to Question Defendant’s Sanity:.........

24-26

6.

The Three Heads of Cruel and Unusual Punishment:..................................................

29-34

7.

Remand Pursuant to Holland v. Florida and the Principles Contained Therein:...........

34-38

Conclusion

38-39

BOTTOM LINE:

39-40

*

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW

[X]

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix “A” to the

petition and is UNPUBLISHED
The opinion of the United States District Court appears at Appendix “B” to the
petition and is UNPUBLISHED.

JURISDICTION
[X]

For cases from federal courts:

The date to which the United States Court of Appeals decided Petitioner’s case was
March 30, 2021.
[X]

No petition for rehearing was timely filed in my case.

***JURISDICTION OF THIS COURT IS INVOKED UNDER 28 U.S.C. § 1254(1)
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FIFTH AMENDMENT (Due Process Clause):

vH

cu
no
c'CI
n.

No person shall be held to answer for a capital, or otherwise infamous crime, unless on
a presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces,
or in the Militia, when in actual service in time of War or public danger; nor shall any person
be subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.

EIGHTH AMENDMENT:
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.

NINTH AMENDMENT:
The enumeration in the Constitution, of certain rights, shall not be construed to deny
or disparage others retained by the people.

FOURTEENTH AMENDMENT (Equal Protection and Due Process Clauses):
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the laws.

1.

STATEMENT OF THE CASE

(A)

Petitioner has an execution date for January 12, 2023. And though he has issues (of

tremendous merit) that can win him a new trial, he’s being “unreasonably” thwarted by (1)
the district court (2) the Sixth Circuit, and (3) his own counsel from having a “meaningful
adjudication” on the merits of these issues in question. That is, Petitioner is currently engaged
CsJ
in a fight to overturn his unjust conviction against the prosecution, the federal courts, and his

a>
ao
nj
a.

own counselors. All in violation of his Eight and Fourteenth Amendment Constitutional
Rights.

Petitioner invites the Court to view ALL of his pro se filings in the federal courts (so as
to get an adequate picture beyond what’s contained herein) . . . his pro se case in these courts
is EXTENSIVE.

(B)

History of Petitioner’s Case

Petitioner’s currently appointed counselors are remiss, feckless and engage in
misconduct so serious and egregious that it has to border (if not outright be) conduct
unbecoming of an attorney and/or dereliction of duty. And Petitioner strongly suspects that
a conflict of interest exists between them and himself. But, moreover, Petitioner has been (and
is still) seeking to have these counselors removed from his case since they first started
representing him in the federal court1 so that he can have a “meaningful opportunity” to
present his issues of “tremendous merit” to the courts and receive “proper” adjudication.2 Bu t
no matter how much or how hard Petitioner tries to have these gross underperforming
counselors removed from his case - and no matter how egregious and shiftless Petitioner proves

m
tio
n.

l

See Dist. Ct. Case No. 3:04-cv-187 at Docs. 23; 121; 143; 152; 155; 163 (at § II (I), pp 2-6);
165; 233 (at next to last ^[); and his two speeches that he gave at his evidentiary bearing (at
Evid. Hrg. Tr. 143 and 324); as with the motion for the appointment of counsel that Petitioner
lodged in the Ohio Supreme Court on September 11, 2017; see, also, Petitioner’s motions to
have counsel replaced in the Sixth Circuit at Docs. 17 and 23 of Case No. 09-3389; (the letter
that he wrote the Sixth Circuit, to which it received on October 12, 2012, but never placed on
its docket); as with his motion for certificate of appealability to the Sixth Circuit that he lodged
with said court at Case No. 18-3368.
2 EVERY ISSUE, as presented by Petitioner’s federal counselors, was denied by the federal
courts (NOT on their merits, but) due to some major flaw and/or deficiency due to counsel’s
inclination for being remiss and shiftless.

them to be — the lower federal courts are unwilling to grant him a change of counsel, or allow
him to self-represent independent from them and their tutelage.5 And it is only because these
feckless, remiss counselors were permitted to remain on Petitioner’s case that his federal
appeals were “extinguished” - all of them save for the motions that he “now” intends to file
with the courts.

(C)

Most Recently:
Petitioner filed a renewed motion with the district court requesting that the court

discharge his current counselors (see Docs. 250 and 258) so that he may have success in his
future legal endeavor to have his unjust conviction overturned via a Fed. R. Civ. P. 60 (d)
motion, and/or a petition for actual innocence. The magistrate judge - after having been made
aware of Petitioner’s counselors penchant for deceit, the telling of lies, and perpetration of
fraud upon (both Petitioner and) the court — unreasonably decided against Petitioner and his
well-founded motion to discharge counsel, in favor of a most “nonsensical” situation retaining
current counsel at the helm to lodge his 60(d) motion.4 Though the magistrate judge did
permit that if Petitioner’s current counsel “refuses to file his motion” he could then take it
upon himself to petition the court for permission to lodge said motion himself (though without

<k
QO
Q_

3 The singular time in which the magistrate judge was willing to allow Petitioner a departure
from his remiss counsel, he infused his NOTICE TO PETITIONER with “threats” aimed at
intimidating Petitioner from his position of wanting to discharge counsel. And upon such
threats, Petitioner “withdrew” his motion to discharge counsel, BUT conveyed unto the court
that his reasoning for withdrawing liis motion was, in part, due to the intimidation employed
by the court to “force” him to retain his counselors...inasmuch as the court had declared that
it would NEVER appoint new counsel for Petitioner in any of his future endeavors - clemency
included. See Docs. 166 and 175.
4 Keep in mind that current counsel and their “serious misconduct” and “gross negligence” are,
in fact, the cause for which a 60(“d”) motion INSTEAD of a 60(b) motion is even needed.

benefit of any counsel whatsoever independent of his current counselors, Next of Friends
included). However, it must be noted (as it pertains to Petitioner’s ability to represent himsel f)
that the magistrate judge, at the insistence of Petitioner’s deceitful and dishonest counsel, all
but labeled Petitioner an imbecile too incompetent to undergo the process of selfrepresentation. See Doc. 262 at pp. 1 and 6, respectively.
Sensing that the magistrate judge was being unreasonable and had abused its
discretion, Petitioner lodged an appeal on the matter in the form of a Motion For
Reconsideration and therein “disproved” all of the magistrate judge’s alleged bases for having
denied Petitioner’s motion to discharge counsel, but the magistrate judge further abused its
discretion and struck said motion. (See Docs. 263 and 264). Petitioner then lodged a motion
for Certificate of Appealabilities (COA) in the Sixth Circuit. (See Petitioner’s Docket in the
Sixth Circuit at Case No. 20-3943).

But Petitioner received no understanding nor any equity

while appealing to that court, though Petitioner’s situation be of the sort that cries out
“loudly” for understanding and equity. Indeed, the Sixth Circuit saw fit to dismiss his appeal,
concluding that Petitioner’s situation isn’t “sufficiently strong [enough] to overcome the usual
benefits of deferring appeal until litigation concludes.” See Doc. 8-1 at p.4.

2.

REASONS FOR GRANTING THE PETITION

Considerations Governing Review on Certiorari:

Due to the following circumstances and facts, Petitioner invokes this Honorable Court’s
judicial discretion:

LO
nn

1. Multiple decisions have been entered in Petitioner’s case that so far depart from the
accepted and usual course of judicial proceedings that this Honorable Court’s exercise
of its “Supervisory Power” is much needed.
2. In violation of his Eighth and Fourteenth Amendments to the United States
Constitution, Petitioner is made to suffer through an “apparently” grotesque, yet faulty
appellate process, thereby causing him untold mental anguish, and if left unchecked,
will inevitably result in his untimely, unjust death via execution.
3. Petitioner is (and has been for some years) engaged in a fight, not just against the
prosecution, but also against his own counsel, his magistrate judge, and the Sixth
Circuit, and if this Honorable Court doesn’t intervene in Petitioner’s case, he will find
himself permanently prohibited from seeking “meaningful adjudication” on his
remaining issues of tremendous merit.
4. Petitioner proffers questions of exceptional importance as it pertains to the likes of the
appellate process of 28 U.S.C. § 2254 that this Honorable Court may wish to address.

3. The Due Process Clause, Equal Protection Clause, And The Right To Be Free From Inflection
Of Cruel And Unusual Punishment During The Appellate Process:

“‘Due process’ emphasizes fairness between the State and the individual dealing with
the State, regardless of how other individuals in the same situation may be treated.” Ross v.
Moffitt. 417 U.S. 600, 609. “‘Equal protection,’ on the other hand, emphasizes disparity in
treatment by a State between classes of individuals whose situations are arguably
indistinguishable.” Id. And pursuant to Rhodes v. Chapman:
“The Eighth Amendment, in only three words, imposes the constitutional limitation
upon punishments: they cannot be ‘cruel and unusual.’ [This] Court has interpreted these
words ‘in a flexible and dynamic manner,’ . . . and has extended the Amendment’s reach
beyond the barbarous physical punishments at issue in the Court’s earliest cases. . .
Today the Eighth Amendment prohibits punishments which, although not physically
barbarous, ‘involve the unnecessary and wanton infliction of pain.’ ... or are grossly
disproportionate to the severity of the crime[.] . . Among ‘unnecessary and wanton’
inflictions of pain are those that are ‘totally without penological justification.’”
452 U.S. 337, 345-46. (citations omitted)(emphasis added).
Furthermore, the Eight and Fourteenth Amendments operates hand-in-hand to
protect citizens from the horrors of cruel and unusual punishment.

00
Q_

4.

The Eighth Amendment And Its Protections From Cruel & Unusual Punishment:

When Petitioner was accused of the crimes to which landed him on Ohio s Death Row,
he was tried, found guilty, and sentenced to “death.” However, in addition to “this death
sentence,” Petitioner has also been unjustly subjected to a most grotesque and faulty appellate
process. The ramifications thereof being highly inconsistent with the principles oi: “equity,
as w ith being a clear violation of his Eighth and Fourteenth Amendments to the United States
Constitution. And as such, and if left “unchecked,” Petitioner will undoubtedly remain firmly
grounded within the Catch-22 of a situation that he finds himself “inescapably” trapped.

This Court, in Wilson v. Seiter. 501 U.S 294, 309-10, citing it’s take on Whitley v.
Albers. 475 U.S. 312 held:
“An express intent to inflict unnecessary pain is not required, Estelle v.
Gamble, 429 U.S. 97, 104, 50 L. Ed. 2d 251, 97 S. Ct. 285 (1976) (‘deliberate
indifference’ to a prisoner’s serious [appellate conditions and] needs is cruel and
unusual punishment), and harsh ‘conditions of [his appellate process]’ may
constitute cruel and unusual punishment unless such conditions ‘are part of the
penalty that criminal offenders pay for their offenses against society.’ Rhodes v.
Chapman. 452 U.S. 337, 347, 69 L. Ed. 2d 59, 101 S. Ct. 2392 (1981).” 475 U.S. at
319 (emphasis added).

Indeed, and as just mentioned, Petitioner was sentenced to death . . . NOT to be
subjected to the faulty appellate process in which he is currently undergoing. Petitioner’s
magistrate judge is determined to make faulty rulings in his case that serve to deprive him of
his opportunity to have a “meaningful adjudication” of his appellate issues.

And when

Petitioner brings said unreasonable rulings to the courts’ attention, no one seems to care: be it
magistrate judge who issued the ruling, or the federal court of appeals (when Petitioner seeks

1*^
m

remedy from them). The Sixth Circuit has been, and continues to remain “indifferent,” as the
Court will see.

(a)

One example is when the magistrate judge issued his Decision and Order denying

Petitioner’s federal habeas petition (see Doc. 104), he illuminated the glaring fact that
Petitioner’s current counselors’ performance suffered from a multitude of inadequacies and
shortcomings — most of which being of a serious nature — as nearly every claim was flawed in
one manner or another, and “procedurally defaulted” due to their ineffectual litigation. And
these “inadequacies and shortcomings” include, but are not limited to the following magistrate
quotes (most are preceded by a brief description from Petitioner, then the “quote” from the
magistrate judge):

,

They failed to offer evidence of Petitioner’s incompetence to assist his attorneys on
1.
post-conviction at his Evidentiary Hearing and didn’t even attempt to address the state
“Franklin called Dr. Pearson to testify at the
court’s reason for denying his claim:
evidentiary hearing in these proceedings ... but no evidence of Franklin’s incompetence at the
time of his post-conviction proceedings was presented beyond what was available to the state
courts through Dr. Pearson’s affidavit. Indeed, Dr. Pearson’s evidentiary hearing testimony
focused primarily on Franklin’s competence at trial, and only slight mention was made of the
state of his competence during the state post-conviction proceedings ...” and “Franklin never
addresses the state court’s reason for denying his claim, and his argument in support here is
convoluted.” See Franklin v. Bradshaw, 2009 U.S. Dist. LEXIS 23715 at [*54-55]. (emphasis
added).

.

They omitted citations to the record that would show that the lower court ignored
2.
“Franklin urges this Court to assume that the Ohio Supreme
evidence it had before it:
Court ‘failed’ to note his objection and ‘ignored’ subsequent attempts to obtain a new trial
based on nothing more than his word. . . He points to nothing in the record that would. cause
this Court to believe that the state court ignored any of the evidence before it, including the
objections Franklin raised the day after the offending remarks were made by the prosecutor.
Id. at [*71]. (emphasis added).

00
00
CL

“The state court considered
Franklin’s claim of error waived and conducted a plain error review, It found none, which
results in a procedural default of Franklin’s claim unless he can demonstrate cause and prejudice

3.

They failed to provide cause for Petitioner’s default:

to excuse the default. Fra-nlclin drum not, contend his counsel’s ineffectiveness or any other
p.irnnmBt.fl.rff.ft provides cause for his default, however ... so his first prosecutorial misconduct,
sub-claim is procedurally defaulted and denied.” Id. at [*72]. (emphasis added).
“In bis
They completely ignored the Ohio Supreme Court’s discussion of a claim:
4.
argument, Franklin relies entirely on the trial court’s response to a defense objection to the
prosecutor’s characterization of arson expert Yeazell as a liar, and completely ignores the Ohio
Supreme Court’s discussion of the claim. . .” Id. at [*73]. (emphasis added).
4

“Even if he had preserved
They failed to satisfy a key requirement of AEDPA:
5.
the claim for habeas review, however, it would fail. Franklin has not claimed, demonstratedA
argued, or otherwise explained how the Ohio Supreme Court’s decision was contrary to or an
nnTftftflonfthlft application of Supreme Court law, nor has he contended it was based upon an
nnre^Royiflble determination of the facts based on the evidence presented in the state courts. .
. Under the AEDPA, therefore, Franklin has not carried his burden.” Id. at [*74]. (emphasis
added).

6.

They offered only unsupported conclusions as it pertains to the improper arguments

concerning Petitioner’s tattoos and alleged that his constitutional right were somehow
“Franklin has offered only unsupported conclusions that the introduction of an
violated:
argument about his tattoos violated the federal constitution in some way. He has demonstrated
no basis upon which this Court might grant the writ of habeas corpus on this basis, and it is
accordingly denied.” Id. at [*79]. (emphasis added).

7.

They omitted citations to the comments the prosecution made about Petitioner’s

tattoos, and failed to meet the AEDPA standards:

“Franklin contends the prosecutor’s
comments about Franklin’s tattoos were improper. .. He fails to point to anywhere in the record

where the comments are made, and does not claim that the state court’s decision on the matter
was contrary to or an objectively unreasonable application of federal law.” Id. at [*78 79].
(emphasis added).

8.

They failed to specify just what evidence was irrelevant, inflammatory, and prejudicial

as it pertains to Petitioner’s thirteenth ground for relief: “Franklin’s claim that his counsel
were ineffective for failing to contemporaneously object to unspecified[.] 'irrelevant.
snfhunmatQry [sicl, and prejudicial evidence.’ asserted as his thirteenth ground for relief fails.”
Id. at [*80], (emphasis added).

9.

They failed to demonstrate prejudice from Petitioner’s trial counsel’s failure to object

to the prosecutor’s comments about his tattoos:

“Nor has Franklin demonstrated prejudice

from his attorney’s failure to object to the admission of the tattoo evidence or the prosecutor’s
comments about the tattoosId. at [*80]. (emphasis added).
10.

They failed to identify any specific testimony the court might consider, didn’t refer to

the state court record, didn’t satisfy the AEDPA standard, and never sought permission to
“He claims
present evidence that would bolster his claim at the Evidentiary Hearing:
improper victim impact testimony was elicited by the prosecutor, but fails to identify any
specific testimony that this Court might consider, does not refer to the state court records and
has not satisfied his burden under the AEDPA standard applicable in these proceedings. . .
Franklin never sought or received permission to present evidence at his evidentiary hearing that
might have supported this claim.” Id. at [*81]. (emphasis added).
They alleged that remarks made by the prosecution improperly characterized
II.
“Franklin contends
Petitioner, but failed to reveal just what they characterized him as:
the prosecutor made remarks improperly characterizing him; as whaL he does not reveal. .
Id. at [*82]. (emphasis added).
12.
They failed to request an Evidentiary Hearing to present evidence to support their
allegations:
“Franklin neither requested nor received permission to present evidence to
support his allegations at the evidentiary hearing in these proceedings.” Id. at [*83j. (emphasis
added).
13.
They provided no specificity in their pleadings, didn’t make citations to the state court
“He provides no specificity in
records, and failed to satisfy requirements of the AEDPA:
his pleading, no citations to the state court record, and no claim that the state court’s decision
on the issues presented was contrary to or an objectively unreasonable application of federal
law, or that it was based upon an unreasonable determination of the facts as presented at trial.
.. As such, Franklin has failed to substantiate his allegations and consequently to satisfy his burden
under the AEDPA ” Id. at [*83]. (emphasis added).
14.
They failed to litigate the sixth and seventh sub-claims in the traverse:
does not argue the sixth or seventh sub-claims in his Traverse.” Id. at [*84],

“Franklin

They failed to identify the prosecution’s offending comments, or where they might be
15.
found in the record, thereby prompting the court to inform his counsel that it (the district
court) isn’t required to search the record in order to find support for Petitioner’s claims:
“. . . he does not identify ‘with specificity’ what the prosecutor’s comments were, or
where the offending comments might be found in the record. . . This Court is not required to

O
*—I
QO
CL

search the record in order to find support for a habeas petitioner’s claims.” Id. at [*84].
(emphasis added).
They omitted cause for default and incurred prejudice: "‘Franklin has not suggested
16.
any cause for his default, nor has he demonstrated prejudice therefrom.” Id. at [*85].
(emphasis added).
“He
They failed to seek permission to present evidence at his Evidentiary Hearing:
17.
did not seek to present evidence relating to this ground for relief in his request for an
evidentiary hearing in this Court.” Id. at [*86].
They compelled the court to inform the defense that its tenth ground for relief doesn’t
18.
conform to Rule 2 (c) (2), as they failed to state facts to which would support this particular
“the Court is compelled to note that Franklin’s pleading of his tenth ground for
claim:
relief does not conform to Rule 2 (c) of the Rules governing Section 2254 Cases in the United
States District Courts. That rule requires that the petition must ‘state the facts supporting
each ground [for relief].’” Id. at [106-07].
They didn’t come nowhere near meeting the burden imposed upon a petitioner by the
19.
federal habeas statutes and rules, as they utilized a faulty method of incorporating “by
reference” Petitioner’s other federal habeas claims, as with claims raised in the state courts:
“Franklin’s method of incorporating by reference his other habeas claims, and even
more so his claims raised in the state courts, is ill advised and the validity of this maneuver is
doubtful. . . The arguments a petitioner may have made ‘in the state court,’ therefore, do not
adequately address the question this Court must answer in a habeas petition, and merely
‘parroting.’ or even worse, attempting to incorporate the state arguments by reference comes
nowhere near meeting the burden imposed on a petitioner by the federal habeas statutes and
rules.” Id. at [107-08]. (emphasis added).
They compelled the court to state that it wasn’t inclined to supply a reason of its own
20.
making as to how this particular claim is related to Petitioner’s ineffective assistance of counsel
“Franklin does not provide an explanation as to how that claim is related to his
claim:
ineffective assistance of counsel claim here and the Court is not inclined to supply one of its
own making.” Id. at [*110].
21.
“In this ground for relief, Franklin provides so little substantive ‘specificity’ and
‘argument’ that it is extremely difficult to determine whether the claim is preserved for habeas
review. He sets forth his claim, such as it is. in one sentence in his habeas petition containing
no citation to the record or federal law . . . and merely defends against Respondent’s assertion
of procedural default in three sentences in his Traverse. . . Apparently, Franklin intends to
DO

a.

incorporate by reference the substance of his state claims, a technique questioned by this Court
above.” Id. at [*116-17]. (emphasis added).
In Petitioner’s opinion, they failed to take the opportunity to mesh TWO of his pro se,
22.
vior dire claims with his (Second) Eleventh Ground for Relief regarding his trial attorney s
“inability to question potential jurors about their views on the various aspects of ‘insanity,’
Petitioner’s SOLE defense”; and “trial attorney’s failure to question potential jurors about
their knowledge of an alleged incident (reported on the local news) about Petitioner having
tried to kill an inmate that he was celled with’ while already awaiting trial for the killing of his
uncle and grandparents,” as both pro se claims would have dovetailed perfectly with this
ground for relief. [See *124-39].
“Franklin makes no argument as to why or how the state court’s application of the law
23.
was unreasonable or erroneous and he presented no evidence relating to this sub-claim at his
evidentiary hearing.” Id. at [126]. (emphasis added).
They omitted pretrial publicity and the effect that it had on Petitioner’s community:
24.
“Franklin does not suggest that the pretrial publicity in his case had such an effect on the
community in and around Dayton, Ohio, where the murders occurred.” Id. at [*132].
“Franklin failed to demonstrate that his counsel provided substandard representation
25.
by not objecting to the trial court’s comment, and he did not explain how he was.prejudic.ed
by his counsel’s failure.” Id. at [*136-37]. (emphasis added).
“Franklin does not
They failed to address Respondent’s argument in Traverse:
26.
address Respondent’s argument in his Traverse, but [rather] only acknowledges that
Respondent ‘did not advance a procedural default defense’...” Id. at [146]. (emphasis added).
27.

“Franklin has provided this Court no citation to any example of any of the failures of

his counsel he alleges in his claim. As has been noted above, Habeas Rule (2) requires a
petitioner to state the facts supporting each ground for relief. Instead, Franklin has merely
rn ade bare conclusorv accusations without citing any support in law or fact.
Neither has
Franklin explained how the Ohio Supreme Court’s decision was contrary to or an unreasonable
application of Supreme Court law. In such a vacuum this Court is unable to grant habeas
corpus relief. Even if the claim were properly presented, Franklin has not shown how he was
\prejudiced* by the errors he attributes to his trial counsel. Consequently, he has failed to
demonstrate entitlement to a writ of habeas corpus, and his thirteenth ground for relief is
denied.” Id. at [*147]. (emphasis added).
They failed to set forth specifics in Petitioner’s Traverse: “This Court, however, is not
28.
inclined to identify where each was testified to by mitigation witnesses or which consist of

CM

hearsay or which lacked any mitigatory value, especially since the Court is unaware ofprecisely

Cl

00

which of the allegations made in the state court Franklin intends this Court to address, given
his failure to set forth specifics in his Petition or Traverse. The Court has performed a full
review of Franklin’s claim, and uses the examples above to illustrate its reasoning.” Id. at
[*153-54]. (emphasis added).
29.

They failed to render citations to the record:

“Respondent argues the claim is

procedurally defaulted . . . but Franklin contends, without citation to the record, that the
claim was preserved for habeas review via a pro se application to reopen his direct appeal filed
in the state court . . .” Id. at [*155-56]. (emphasis added).
30.

They offered no basis upon which Petitioner may be forgiven for his procedural default:
“Franklin’s claim is procedurally defaulted. Ohio law provides that claims of
ineffective assistance of appellate counsel may be raised, indeed may only be raised, in an
application to reopen an appellant’s direct appeal. . . Franklin contends his ineffective
assistance of trial counsel claim was preserved because he identified it as an assignment of error
his appellate counsel should have raised on direct appeal, the failure of which constituted
ineffective assistance of appellate counsel. Because claims of ineffective assistance of appellate
counsel are based on a different legal theory from the underlying claims, the Sixth Circuit has
expressly held that an application to reopen a direct appeal does not preserve the underlying
claims from default. . . Franklin’s contention that he presented the underlying ineffective
assistance of trial counsel claim in the state courts is therefore unavailing. As Franklin has
offered no other basis upon which the Court might excuse his default, his seventeenth ground
for relief is procedurally defaulted and accordingly denied.” Id. at [*156]. (emphasis added).
31.
They stated that the Ohio Supreme Court’s decision was unreasonable without
supporting argument, or citation of law: “Franklin states, without supporting argument or
citation to law, that the Ohio Supreme Court’s decision is unreasonable * * * Franklin states
the Ohio Supreme Court’s decision is unreasonable, but does not explain why or what federal
law it contradicts, other than to cite unspecified ‘existingprecedent.’” Id. at [*158-59]. (emphasis
added).
“Franklin alleges the Ohio court’s findings are unreasonable, but provides no citation
32.
to any authority that might provide this Court with a basis upon which to make that
determination. Even if Franklin had shown the guilt-phase evidence should not have been
admitted in the mitigation phase, however, he has not demonstrated prejudice from admission
of the evidence or his attorney’s failure to object to the same. Under Strickland. Franklin is
required to demonstrate error on his attorneys’ part and prejudice caused by the error. As he
has done neither, he is not entitled to habeas corpus relief, and his nineteenth ground for relief
is denied.” Id. at [*160-61]. (emphasis added).

CO
00
Q_

33.

They didn’t even attempt to show or demonstrate that the Ohio Supreme Court’s

summary rejection on the merits of Petitioner’s Application to Reopen his Direct Appeal was
“Franklin has not demonstrated
contrary to, or an unreasonable application of federal law:
that the Ohio Supreme Court’s summary rejection on the merits of his application to reopen
his direct appeal was contrary to or an unreasonable application of federal law. Accordingly,
his forty-seventh ground for relief is denied.” Id. at [*276-77]. (emphasis added).

HOWEVER, when Petitioner was served with a copy of the magistrate judge’s ruling
(a ruling that is binding and unappealable, except to the Sixth Circuit inasmuch as the
magistrate judge has “final authority” over Petitioner’s case),5 he instantly knew that it would
be impossible for him to receive a “fair merits ruling” with his federally appointed counsel
(because of their remiss and feckless nature), and as such filed a motion for substitution of
counsel (Doc. 121) citing the aforementioned inadequacies as “justification for a change of
counsel.” The magistrate unreasonably denied his motion (Doc. 122) stating that “[t]he same
observations made [when the court denied Petitioner’s motion for substitution of counsel back
in 2004] remain true [now]” in that “ . . . the Court believes Petitioner can trust counsel to act
in his best interests in this case.” (See Doc. 122 citing Doc. 24 at p3.)(emphasis added). The
magistrate judge further on went to state:

^1"
uo
Q_

5 The magistrate judge exercises “plenary power” in Petitioner’s case inasmuch as one of his
counselors, unbeknownst to him, filed a “Consent to Magistrate Judge Jurisdiction” motion,
thus forfeiting his Constitutional Right to an Article III Judge. And as such this magistrate
judge has “final authority” without having to answer to a judge above him. See Appendix
“E” (signed ONLY by counselor, Ms. Adele Shank). But the thing about this motion and the
“timing of its filing” is that his attorney lodged this motion around (if not before) the same
time Petitioner lodged his motion for a substitution of counsel, because of his attorneys’ refusal
to communicate with him and discuss legal strategy, etc. And as such, confidence was virtually
nonexistence in them. So, just when did Petitioner have time to discuss and “weigh” the option
of allowing a magistrate judge have “final authority” over his case? See. Docs. 23, (the date of
its certificate of service).

“[Petitioner] has been appointed not one, but two attorneys, both of whom, are skilled in
criminal defense. Ms. Shank had extensive capital habeas corpus experience when
appointed and has since served on the American Bar Association’s task force to review the
Ohio death penalty. Mr. Fleisher is a very experienced criminal defense attorney, current
President of the Dayton Chapter of the Federal Bar Association. . . Both are members of
the Criminal Justice Act Plan special panel for death penalty cases. The fact that they h ave
not achieved the result for which Petitioner hoped does not mean that they have failed
to provide thoroughly professional and zealous representation in this case.”6 (Doc. 122 at
pp. 2-3)(emphasis added).

The fact that the magistrate now sees fit to perform a one-eighty, and shower Petitioner s
counselors with praise, and issue rulings contrary to its own findings is
i a blatant abuse of its
discretion and is, furthermore, a dead on oxymoron. (See NLRB y. Talsol Corp., 155 F.3d 785,
795 (“In the first sentence of the second paragraph, Talsol expressly acknowledged tha t the . .
. status quo was to review employees for wage increases in June. In the very next sentence,
however, Talsol states that it believes it should not do so that year because of its legal obligation
to maintain the status quo.”))(emphasis added). How can a petitioner possibly achieve justice
when he’s subjected to rulings like this from a judge exercising “plenary power,’ AND the
LO
DO

a.

6 These are the comments the magistrate judge made in response to later motions to have his
current feckless counsel removed from his case:
“[Franklin’s] current counsel have vigorously and professionally litigated this matter
from its inception in this Court. Both have extensive experience in other capital habeas
corpus litigation and can be trusted by both Petitioner and the Court to advocate
zealously on his behalf.” (Doc. 156)(emphasis added). “[S]o far as the Court can
ascertain, these counsel [sic] have represented Franklin ‘zealously and competently’
throughout this case. The Court would advise Franklin, as it has before, to trust
appointed counsel.” (Doc. 166 at p6)(emphasis added). He’s “refused [Franklin s]
requests to replace his current counsel because [he’d] found no fault with their
performance.” (Doc. 234). “[Franklin] has been represented throughout the course of
these proceedings by highly qualified counsel.” (Doc. 240)(emphasis added).

counsel thatV supposed to protect him from abuses such as these, is the “cause for these
decisions,” and besides that are opposed to him and his quest to overturn his unjust conviction?

You’d think that the Sixth Circuit would (upon proper motion) step in and relieve
Petitioner of his suffering, but they’ve declined. (See Docs. 17, 23, and 30 in the Sixth Circuit
at Case No. 09-3389; see, also, Docs. 76 and 80). In violation of Petitioner’s Eight Amendment
Right to be free of cruel and unusual punishment, that court was indifferent to the serious
circumstances that Petitioner’s case exhibited. See Wilson, supra. And that court is still
indifferent until this very day and still refuses to apply “equity” to Petitioner’s case so as to
relieve him of his unwarranted hardships.

(b)

Another example is when counsel perpetrated FRAUD upon the Court by putting forth

“bad faith” requests to have his case held in abeyance stating the following:

I.

H.

m.

“[Franklin’s] successor state post-conviction petition raises several
federal issues. Habeas counsel anticipate raising several of those issues
in Mr. Franklin’s habeas petition, assuming he does not obtain relief
through the successor state post-conviction proceedings.” (Doc. 25 at pp.
8-9)(emphasis added).
“Mr. Franklin’s Petition for Writ of Habeas Corpus raises the same
claims and/or claims based on the same matters as those pending before
the state courts in Mr. Franklin’s successor petition for post-conviction
relief and his application for reopening his appeal. Presenting a habeas
petition with only exhausted claims is not a viable option at this time.”
(Doc. 25 at p 10).
“Filing additional pleadings based on new rulings from the currently
pending state court proceedings could cause reviewing courts to attempt
to hold the matters not addressed in the first round of litigation in federal
court to be defaulted. Petitioner could be confronted with attempts to
characterize subsequently raised issues as an effort to present a successor
habeas petition. . , . Furthermore, it could result in substantial
unfairness to Mr. Franklin when confronted with claims of waiver,

kO
*—i
00

a_

IV.

default, or other procedural hurdles should he need to file subsequent
pleadings based on the now pending state court proceedings.” (Doc. 28
at p 2)(emphasis added).
“Furthermore, proceeding at this point may result in future allegations
of waiver or default as well as claims that any issues which emerge and
are presented later ‘are attempts to file a successor habeas petition.’”
(Doc. 28 at p 4)(emphasis added).

And upon receipt of these dishonest “bad faith” requests from counsel, the Court indeed
held Petitioner’s case in abeyance for the purpose of exhaustion and ‘inclusion (Doc. 29).
However, upon exhaustion of his state remedies, Petitioner’s counselors “refused” to amend
their petition to the inclusion of his newly exhausted claims. And when Petitioner sought to
bring some of said “intentional omissions” to the court’s attention (Doc. 45) in hopes of having
said court insist that counsel - as they’d promised Petitioner and the court to do - incorporate
the newly exhausted claims within their petition, said court declined to hold his counselors’
feet to the fire and instead admonished “Petitioner” against filing papers in its court pro se
whilst retaining counsel (Doc. 46); thereby effectively binding his hands behind his back and
precluding these issues in question from ever being presented in his habeas petition — of which
Petitioner will undoubtedly face a “procedural default” if he should so seek to have these
claims of merit that were “promised to be litigated” (but weren’t) adjudicated. But at the time
the Magistrate Judge saw absolutely nothing wrong with this “perpetration of fraud upon the
court.”7
DO
CL

7 This same Magistrate Judge, however, would later inform Petitioner that some of the issues
in which Petitioner had litigated within the confines of his pro se 60 (b) (6) motion (some of
which being the very issues in question that were promised to be litigated by counsel, but never

Now, admittedly, some things are lost upon Petitioner, and as such, he just doesn’t

(c)

comprehend just how the district court can rest assured upon its assertion that counsel are
professional and zealous in their representation of Petitioner when counsel has failed their
client in a multitude of ways. Aside from them being directly responsible for him having
become the not-so-proud recipient of an execution date,8 counsel has also failed their client in
the following ways:

I.

Counsel filed a motion for discovery, the warden opposed said motion, and counsel,
on February 19, 2013, allowed “[Mr. Franklin’s] time to file a reply in support
expire[] . . . without any reply being filed.” See Franklin v. Robinson. 2013 U.S.
Dist. LEXIS 27532 at *1.

II.

Counsel, on December 26, 2013, permitted their client’s “time to file a reply to the
Return of Writ in [his] case expiref]. .
without having filed a reply, prompting
the Court to have counsel “advise the Court forthwith whether [counsel] intended
to file a reply and why it was not filed within the time allowed by the Order for
Answer.” Id. at *3. (Emphasis added).

m.

Upon having his case transferred to the Sixth Circuit for a determination as to
whether or not Mr. Franklin could file a second petition pursuant to 28 U.S.C.
§2244(b)(2), counsel’s “negligence” was the causation for the Sixth Circuit
“dismissing . . . [Mr. Franklin’s] action ‘for want of prosecution,’ as [counsel] failed
to cure identified defaults, despite being given notice and time to do so.” See
Franklin v. Warden. Chillicothe Corr. Inst.. 2016 U.S. Dist. LEXIS 40391 at *1-2,
(citing In re Franklin, 2016 U.S. app. LEXIS 6315) (Emphasis added).
Counsel’s performance reeks of laxness, ineffectualness, and, understandably, inspires

naught in the way of confidence, so far as Petitioner is concerned. And this is only the latest
of their crusades to preserve Petitioner’s unjust conviction.

Yet, the magistrate judge
OO
at
00
CL

were) were “successive” in nature inasmuch as they had never been litigated in that court
before Petitioner had sought to litigate them in that court pro se. (See Docs. 158-1 and 183).
8 See Petitioner’s latest (State v.) Murnahan filed in the Ohio Supreme Court, denied
September 26, 2018. 63 Ohio St. 3d 60.

adamantly insists that current “counsel have [sic] vigorously and professionally [represented
Petitioner].”
(d)

Also notable, is the fact that once Petitioner chose to “fire” his counselors (see Docs.

143,148, and 152) the magistrate judge suddenly felt compelled to grant Petitioner something
which, in the past, it insisted that he could “never” enjoy, nor benefit from:
representation. (See Doc. 153; then see Docs. 121, 45 46, 122, 136, and 137).

hybrid

However,

Petitioner, in no uncertain terms, made the court aware that he wanted absolutely NOTHING
to do with his current counselors and lodged with the court Doc. 155.9 But somehow the
magistrate judge still managed to thrust this hybrid-representation situation upon Petitioner;
ultimately to his detriment, as said counselors would be a “factoring cause” in him filing a late
notice of appeal, and subsequently having his pro se filed 60 (b) motion (not adjudicated on
the merits, but rather) extinguished.
It would seem that somewhere after the process of the court mandating that Petitioner
lodge papers in court, himself, pro se, that that very court would later cease to provide its rulings
to Petitioner. Why it would do as much, the Court would never explain. In any instance, and
unbeknownst to Petitioner, he was to rely upon the kindness of his untrustworthy counsel for

CT>
QO
Q_

9 This, too (counsel’s misrepresentation that Petitioner only required new counsel for the
purpose of “responding to the prosecution,” and/or he was willing to allow present counsel to
continue on his case in a hybrid capacity), was an instant of “fraud upon the court,” for
Petitioner unequivocally expressed his desire to sever relations with his current counsel in Doc.
152. Then the court was “apparently” presented with patent misrepresentations from
Petitioner’s counsel during phone conferences between counsel and the court on 07/23/2013,
08/19/2013, 08/20/2013, and 09/25/2013; of which, said conferences were unquestionably fraudladen if they were effective enough to cause the court to deem Petitioner’s motion to discharge
counsel “withdrawn” after having been petitioned by Petitioner with the likes of Docs. 143,
152, and later 155. Furthermore, Petitioner would have this Court visit n. 3, at Doc. 250.

copies of decisions from the court. The first time in which Petitioner was made reliant upon
said counsel in this manner, he received Doc. 183 - the court’s decision denying his pro_.se 60
(b) motion for relief — with half of his time to prepare and lodge an appeal erased. (See Doc.
191).10 Totally unware to the fact that the court had determined to desist in serving him,
Petitioner filed Doc. 191 with the court in hopes that said “complaint” would put the court on
notice, and ultimately prompt the court to correct its oversight in failing to serve him in its
future decision makings, especially as it pertained to Petitioner’s pro se filings. The magistrate
judge never responded, nor acknowledged said complaint and persisted to — unbeknownst to
Petitioner — force him to rely upon his attorneys for copies of the court’s decisions.

Then came the court’s decision in Doc. 200: denying Petitioner’s motion for
reconsideration.

The court, again, neglected to serve Petitioner (though he was a forced

litigant); and counsel, faced with the same exact circumstances as were they when the Court
denied Petitioner’s 60 (b) motion, inexplicably failed to dispatch their client a copy of the
court’s decision; late or otherwise. Never mind the court record, again, reflected no mentioning
of having served Petitioner, and Petitioner had just lodged a complaint with the court
complaining about having not been served by the court, AND being served by his counsel late.
Counsel in question didn’t serve him whatsoever,

And by the time Petitioner finally

ascertained that his motion for reconsideration had been denied — via footnote contained in
Doc. 202 (the court’s decision denying “counseled” motion for reconsideration), of which
counsel did dispatch to Petitioner — it was well too late to lodge a timely notice of appeal, as

O
CNl
GO
Q_

10 Counsel reasoned that inasmuch as the record wasn’t clear as to whether or not the Court
had dispatched Petitioner a copy of its decision, they decided it best to forward him a copy of
the decision. Never mind said copy was dispatched rather late.

more than 45 days had lapsed. And to add insult to injury, when Petitioner attempted to rely
on counsel — as the court had insisted he should, should he need guidance — and ask if there was
anything he could do to “remedy the situation” in which he found himself thrust (though,
mind you, through no fault of his own) counsel in question “didn’t know.”

Turns out,

Petitioner could have sought a motion for an extension of time to file his notice of appeal. And
counsel “knew” as much, but withheld said vital information from their client.11 And as such,
and for all of the aforementioned reasons, Petitioner’s counsel is untrustworthy . . . though the
magistrate judge defiantly insists that they are professional and zealous in their representation.

Indeed, counsel (in conjunction with the magistrate judge) ruined Petitioner’s ability
to have the issues contained within his 60 (b) motion properly adjudicated.

And when

Petitioner went to the Sixth Circuit on appeal — and though he explained “why” he was forced
to file his notice of appeal “late”12 - the court was unimpressed, indifferent and dismissed his
appeal inasmuch as Petitioner had lodged his notice of appeal late. Surely, such a situation
CNI
DO
Q_

11 It must further be noted that counsel in question had motivation for ensuring that their
client’s endeavor failed, inasmuch as Petitioner had filed a grievance with the disciplinary
council against them, and said council had informed him, in denying his grievance, that,
“[o]nce [he] receive[s] a judgment from a court indicating that ineffective assistance of counsel
has occurred in [his] case, [he] may send [the Council] a certified copy of that judgment.” And
if Petitioner were to have any success on appeal of the issues in which he put forth in his 60 (b)
motion, counsel in question could have, in fact, faced some punishment of sorts.
12 It also must be established that after it had dawned on Petitioner that he might not have
needed to file his “notice of appeal” independently from his attorneys’ inasmuch as he was
currently engaged in a “hybrid-situation,” Petitioner had sought confirmation from the
magistrate judge (the architect of the “hybrid-situation”) via a motion for clarification. But
the magistrate unreasonably suggested that “any clarification of the sort sought in the motion
must be obtained from the Court of Appeals.” (Doc. 222). How can a court, having absolutely
nothing to do with the current proposed arrangement, know what another court was thinking
when it instituted this arrangement? Please see Doc. 221.

calls for “equity” and is in violation of Petitioner’s right to remain free from cruel and unusual
punishment. See Wilson. supra.

(e)

Indeed, none of the abovementioned instances contained in §§4(a)-(d) “are part of the

‘penalty’ that [Petitioner is to] pay for [his alleged] offenses against society.” And as such,
should be rightfully deemed cruel and unusual punishment. Id. And both the district court
and the ensuing court of appeals have been and remain “deliberately indifferent” to
Petitioner’s plight. Despite the fact that their decisions are the direct causation of his plight.
Petitioner is currently undergoing the “unnecessary and wanton inflection of pain,” to which
is disproportionate to the severity of his alleged crime and is “without penological
justification.” See Rhodes, supra.

“The [Due Process] Clause is phrased as a limitation on the State’s power to act. . .[i]t
forbids the State itself to deprive individuals of life, liberty, or property without ‘due process
of law.’” Deshaney v« Winnehago County Dep’t of Social Services. 489 U.S. 189, 195. And
“[l]ike its counterpart in the Fifth Amendment, the Due Process Clause of the Fourteenth
Amendment was intended to prevent government ‘from abusing [its] power, or employing it
as an instrument of oppression.’” Id. at 196. (citations omitted). Thereby, “[i]ts purpose was
to ‘protect the people from the State’. .

Id. (emphasis added). Clearly, Petitioner, in violation

of his Eight and Fourteenth Amendments to the Constitution, is not being protected from the
federal courts ... to the grave detriment of the inevitable loss of his “life and liberty.”

5.

Petitioner’s “Current” Motion to Discharge Counsel:

Psl
Psl
no
CL

A.

As the Court has just seen, via §§4(a)-(d), Petitioner’s counsel is untrustworthy; his

magistrate judge makes rulings that are wholly unreasonable, oxymoronic, and he clearly
abuses his discretion while he does as much; and the Sixth Circuit is uncaring and unwilling to
provide “equity” unto Petitioner and/or correct the lower court’s blatant abuses.
If only the courts would allow Petitioner to shed counsel, he would (at a minimum)
have access to Next Friends. Not to mention that he could “possibly” acquire effective,
reputable counsel willing to take his case pro bono and/or simply advise him (see footnote 19
at the last sentence).
B.

The district court, in response to Petitioner requesting that his counsel be discharged,

decided that, “no,” counsel will not be discharged from his case; and that counsel will file any
and all motions that Petitioner thinks appropriate. But in the off chance that they refuse to
do so, Petitioner can (at that point) represent himself — even though the court literally just
labeled him “incompetent to self-represent.” (See Doc. 262 at pp. 1 and 6, respectively). So,
“how is it that someone that’s just been deemed incompetent to self-represent supposed to be
competent enough to represent themselves WITHOUT the assistance or guidance from any
professional counsel whatsoever?” No Next of Friends. No talking to other counselors that
may desire to assist him. None of that. And the magistrate judge and the Sixth Circuit see
absolutely nothing wrong with this.

Again, this is an oxymoron, as with a violation of

Petitioner’s right to remain free from cruel and unusual punishment. See NLRB v,_TaIsoI Corp..
supra, and Wilson, supra, respectively. See, also, Rhodes, supra. Furthermore, and as in the
case of NLRB v. Talsol Corp.. none of the “oxymoronic decisions” made by the magistrate judge
can be reconciled. And to think that this magistrate has “final say-so” in Petitioner’s case,

CO
C\1
00

and the next court hasn’t any compassion, nor understanding whatsoever.

Q_

This situation is in violation of Petitioner’s Due Process Rights, as it not only fosters
and perpetuates the “unfairness” as experienced by Petitioner at the hands of the government
(which includes his counsel, magistrate judge, and the court of appeals), it actually holds him
captive — powerless to wiggle free on his own accord — and if left unchecked, will undoubtedly
result in his unjust and untimely death. Indeed, the Fourteenth and Eighth Amendments are
supposed to stave off nightmarish situations like this. And, indeed, they would ... if anyone,
or court actually took the time to “apply” them.

C.

At Least Two Claims of Tremendous Merit That Were Denied on a “Mistaken Basis”:

0).

I-A-C - Failure to Present Evidence to Jurors to Question Defendant’s Sanity:
As it pertains to this issue in question, Petitioner’s exact quote was: “Defendant had

on him, at the time of his arrest, hours after the crime, a great deal of possessions ([State]
[E]xhibit[s] 28; 30; 135; 1.37) and in addition to that he was wearing a winter coat in warm
weather ([Supp. H.] Tr. 51-53 (James Sullivan)).”

In denying this claim, the magistrate judge claimed (1) that Petitioner failed to
reference any evidence “other than his coat,” and (2) that the coat was “physically”
unavailable, and as such, trial counsel couldn’t present something that they had no access to.
See Franklin, supra, at [*270-73] and n.23. This decision was made on a “mistaken basis,” and
as such, deprived Petitioner of his chance to have his unjust conviction overturned

One, Petitioner DID reference his “other evidence.” While he didn’t list what “this
other evidence” was, he certainly made reference to “[State] [E]xhibit[s] 28; 30; 135; [and]
137.” And being that the court “ignored” evidence that Petitioner used to support his claim,

CM
DO
£X

the court in fact made a ruling without taking into account “all of the evidence” as presented
by Petitioner.

Two, though the coat was, itself, “physically unavailable,” the fact that Petitioner was
wearing it in “really warm weather” IS available. Petitioner even cited transcript records
stating as much. See Supp. H. Tr. 51-53. HOWEVER, it must further be noted that the jury
remains totally unaware to the fact that Petitioner was observed wearing a winter coat &
layered clothing in “really warm weatheras this peculiar fact came to light only once
during Petitioner’s capital proceedings - at his suppression hearing BEFORE a jury was even
empaneled. Not sure why the magistrate judge is under the “mistaken” belief that there had
to be a “physical” coat present to inform the jury that Petitioner was wearing a winter coat in
really warm weather when he was apprehended.

Especially considering that one of the

arresting officers had previously testified to it (outside of the jury’s presence), and if pressed
would have had to attest to it again. Indeed, this claim was denied on a “mistaken basis” and
in as much deprived Petitioner of an opportunity to have his unjust conviction overturned.

O.k., to recap, when Petitioner was arrested he was observed to be wearing - in really
warm weather - a pair of black shorts; a pair of gray sweat pants; and a pair of black pants
worn atop of the shorts and sweat pants; a blue polo-type shirt; and a winter coat. But not
just that, as odd as that was, he was also observed to have on his person (1) .38 caliber revolver;
(1) gold necklace; (1) lady’s gold watch; (1) gold Nike ring; (1) wedding ring; (1) non-working
cell phone; (6) sets of keys {encompassing over 30 keys}; (1) empty key fob; (1) pair of dice; (1)
hair brush & comb {look at his mug shot photo - what was he going to brush or comb?}; (1)
ruler {yeah, he couldn’t wait to get to his destination so that he could draw lots of straight

LO
CM
00
Q_

lines}; and (2) cassette tapes;13 plus other items that were lost or thrown away

such as his

coat - while he was in custody in Nashville.
Bizarre, right? The jewelry and gun, not so much. But everything else was definitely
bizarre. And believe it or not, as bizarre as that was, Petitioner’s trial attorneys NEVER
attempted to use any of these oddities to question his sanity at trial. Like, how many “sane”
people do you know that walk around in “really warm weather” while wearing a winter coat
an d layered clothing, while carrying around purposeless, senseless items?

(ii).

Bad Faith - Intentionally Eliciting Inadmissible, Hearsay Testimony:
As it pertains to this particular claim, the district court clearly misplaces the crux of

Petitioner’s argument. The court was under the “mistaken” belief that Petitioner was under
the impression that “the prosecution was acting in ‘bad faith’ by objecting to defense counsel s
questioning of Dr. Martin, and Dr. Stookey’s direct testimony based upon her review of
another doctor's report.” See Franklin. Id. at [*276]. This is simply not the case. Petitioner
outlined a clear instance of “bad faith” on behalf of the prosecution for “eliciting inadmissible,
hearsay testimony.” Not sure how the court totally “ignored” Petitioner’s references to the
phrase “elicited hearsay testimony,” but it did. And in doing so, it denied Petitioner’s issue of
tremendous merit on a “mistaken basis” and denied him his opportunity to overturn his unjust
conviction.

f£>
CM
Gfl
O.

13 These herein listed items (everything except for the coat) make up State Exhibits 28, 30,
135, and 137. Furthermore, most of these items have a “delusion-based value” only.

Now, as it were, the prosecution vigorously objected to Petitioner’s trial attorney’s
attempts to extract testimony from the prosecution’s expert witness, Dr. Martin, as it relates
to the information that he relied on to complete his analysis of Petitioner {see Tr. 1288-91
[emphasis added to page 1290], and Tr. 1307-10}; thereby establishing his awareness to the
fact that an expert witness may not testify to the contents of reports that are the basis of his
opinion, but were not prepared by him because it would be “hearsay testimony99 and is not
allowed in a court of law.

Prosecutor Franceschelli’s statements during objections (as it pertains to his intimate
knowledge of “hearsay testimony” and its inadmissibility):
1. “Not getting into what Dr. Stukey [sic] observed .. . it may not even be subject
to Cross Examination. Are you calling her?” (Tr. 1289)
2.
. . [Dr. Martin] can’t testify to Dr. Stukey’s [sic] report.” (Tr. 1290)
3. “. . . if you want to have Stukey [sic] here, that’s fine.” (Tr. 1290)
4. “. . . but here’s the problem. . . what he’s trying to do is obtain hearsay.” (Tr.
1307)
5.
. . he’s trying now to [learn] from [Dr. Martin] what others . . . told Miss
Stukey [sic]. That’s hearsay.” (Tr. 1307)
6. “Now the issue I have with that is . . . that you can’t Cross Examine it.” (Tr.
1308)
7. “Now, if you wanted to ask Stukey [sic] that, he could do that, but not [Dr.
Martin].” (Tr. 1308)

But then the prosecution, having just successfully prevented the defense from
extracting hearsay testimony from Dr. Martin, turned around and

that very day, only

minutes later - knowingly, yet purposefully extracted “hearsay testimony” from their other
doctor, Dr. Stookey.

The thing about Dr. Stookey is that she wasn’t able to form an opinion about
Petitioner’s sanity during the commission of the crime because he wouldn’t talk to her about

rvl
00
Cl

having allegedly committed the crime. But after reading other doctors’ reports, she soon
became very opinionated about his sanity and gave her opinion “under direct questioning from
the prosecution” - which she is NOT permitted to do. So after numerous sustained objections
(more than 10), the trial judge FINALLY struck her opinion from the record and supposed
the juror’s minds - but only after she had given her opinion in its “entirety.”

Dr. Stookey:
1. “. . . he went about and . . . collected the valuables out of the home.” (Tr.
1350)
2. “He took valuables.” (Tr. 1351)
3. “He didn’t go about just picking up random things.” (Tr. 1351)
4. “He didn’t pick up . . . all the breakfast cereal... or that sort of thing.” (Tr.
1351)
5. “. . . after he collected the valuables . . . sets a fire in the house.” (Tr. 1351)
6. “He then leaves . . . he’s aware of what he’s doing.” (Tr. 1352)
7. “. . . leaving the scene suggests to me . . . that he understood ... he had to
get out of there.” (Tr. 1352-53)
8. “He did something wrong and now he has to get away.” (Tr. 1353)

Both of these claims that were “denied on a mistaken basis” have tremendous merit
and definitely have the potential to secure a new trial for Petitioner. But, these are claims that
counsel bluntly “refused” to litigate (see Appendix “D”), even after Petitioner filed Doc. 136:
alerting the court to the fact that it had denied some of his issues on a “mistaken basis.” It
was at that time that a 60(b) motion should have been filed by counsel. But now, in part, due
to counsel’s gross negligence, Petitioner is in a position wherein he needs to file a 60(d) motion
while using as qualifying factors (1) counsel’s “refusal” to litigate these issues (2) their extreme
gross negligence, (3) the fact that the magistrate judge denied Petitioner’s “justifiable” motion
to grant Petitioner a change of counsel when requested {see Doc. 121(filed on 06/05/09)}, (4)

00
CM

0)

the magistrate judge didn’t instruct counsel to file a 60(b) on these issues after Petitioner’s

on
TO
a.

filing of Doc. 136; and (5) the fact that the magistrate wouldn’t allow Petitioner to file pro se
his motion for COA (see Doc. 137)). So, if this is the ONLY way that Petitioner can possibly
qualify for 60(d) relief, how is it remotely not judicial misconduct for the magistrate judge to
force Petitioner to retain the very counsel who are responsible for him needing the extreme
measure of a 60(d) motion?

Furthermore, courts aren’t accepting of an attorney filing against their own person,
claiming incompetence and/or ineffectiveness. Such an argument simply won’t be well taken
by a court. And it is thereby that Petitioner should either be granted a change of counsel, or
granted a much needed separation and allowed to undergo the process quite independent of his
current counsel, but with the assistance of Next Friends to provide him tutelage during his
presentation of constitutional violations of a conviction spoiling magnitude (suffered by him
at the trial level).

6.

The Three Heads of Cruel and Unusual Punishment:

(0-

Dereliction of Duty:
Counsel is supposed to be in position to “protect” their client from potential abuses

from the court; upend their client’s conviction, if at all possible; defend him from the
prosecution and its attempts at the shadings of truths and/or case law. But this counsel not
only failed to protect Petitioner from abuses, it subjected him to abuses - and still continues
lo do so now (after having completely ruined all of his appeals) by (1) intentionally presenting
his issues in a way that they’d NEVER garner any success whatsoever (2) refusing to resign
from his case {as Petitioner has told the court on several occasions, no attorney will talk to

CD
r\i
00
Q_

him while he has counsel assigned to his case}; (3) telling fabrications in an attempt to remain
on his case {though, for what, who knows, as they do absolutely nothing for the advancement
of his case and/or issues}; (4) attempting to litigate issues that it formerly, yet unequivocally
“refused” to {when the issues in question were “ripe.”} all the while KNOWING that “this”
method will fail because they are the reason why these issues weren’t litigated when they should
have been {back in 2009}; and (5) allowing the magistrate judge to abuse their client with
absurd rulings.

(ii).

Judicial Dereliction:

The judge is supposed to be in position to ensure that the petitioner is treated fairly;
justice is done in his court; and if a problem should arise between a petitioner and his counsel,
to settle it in a manner that best facilitates justice. He also has a duty to remove himself - sua
sponte or upon proper motion - if cause arises, or already exists and comes to light. And
dissimilar to the case of Mickens v Taylor. 535 U.S. 162, Petitioner doesn’t assert a Sixth
Amendment violation (but rather an Eighth and Fourteenth violations), and nor is he unable
to show prejudice. The prejudice is quite apparent; and as such, a fresh appeal should be
allowed by Petitioner, very much independent of his feckless counsel and his magistrate
judge.14 ... If only because Petitioner has been clearly attempting to rid his counselors for
nearly a decade, but has been thwarted by the magistrate judge at every attempt.
Furthermore, and because the magistrate judge “did nothing to discharge [his] constitutional
duty of care .. the ensuing [decisions] of [denial] must be reversed and the defendant afforded

O

m

ao
o_

14 The magistrate judge in question is indeed careless, partial, and “resolutely obdurate,”
however. See Mickens at [*173],

a new [appeal].

See Mickens at [*190] JUSTICE SOUTER, dissenting. And even though

this is not an “on point” case, the fact remains that the magistrate judge never questioned
Petitioner about his desire to fire/change counsel (pursuant to Martel v. Clair. 565 U.S. 648, or
whatever prevailing authority before that case).

He KNEW that counsel was grossly

ineffective in their handling of. Petitioner’s case, but even still, was unwilling (or unable) to
admit that counsel nonetheless “ruined” Petitioner’s appeal in his court. And as such, this is
an egregious instance of judicial misconduct because the judge is basing his rulings (to keep
current counsel on Petitioner’s case) off of counsel’s “status”15 instead of their “representation
of him and his case in his court.” Because of Petitioner’s current counselor’s “qualifications,”
the magistrate judge firmly clings to the belief that counsel in question can do no wrong. Never
mind that the magistrate’s own ruling betrays otherwise: See §4(a) of this petition. Clearly,
the magistrate judge in question either has a bias “for” Petitioner’s current counselors, and/or
a bias “against” Petitioner - perhaps both. Either of which being wrong. Not to mention that
the magistrate judge is of the identical, yet flawed and erroneous mindset as was the State in
the case of Martel when it presumed that “a court may not change counsel under §3599 even if
the attorney-client relationship has broken down, so long as the lawyer has the required
qualifications and is “act[ing] as an advocate.” Martel at 660-61. (emphasis added).

And let’s not forget that “[i]t is hornbook law that ‘[w]hen an indigent defendant
■c—I

makes a timely and ‘good faith’ motion requesting that appointed counsel be discharged and

00
00
O-

15 Ms. Shank being on the “American Bar Association’s task force to review the Ohio death
penaltyMr. Fleisher being “President of the Dayton Chapter of the Federal Bar Association”;
and both counselors being members of the “Criminal Justice Act Plan special panel for death
penalty cases” (see Doc. 122 at p.2)).

new counsel appointed, the trial court clearly has a responsibility to determine the reasons for
defendant’s dissatisfaction..And “Moreover, an on-the-record inquiry into the defendant’s
allegations ‘permitfs] meaningful appellate review1 of a trial court's exercise of discretion.” Id.
at 664 (citing United States v. lies. 906 F.2d 1122,1130 (CA6 1990), and United States v. Taylor)
487 U.S. 326, 336-337).

(iii).

Indifference by the Court of Appeals:
The appellate court - being the ONLY place that Petitioner can seek

adjudication for gross abuses of discretion, inasmuch as Petitioner’s magistrate judge
has “final say-so” in his case16 - REFUSES to correct injustices done unto Petitioner
and/or simply “uphold” his statutory right to counsel (see Docs. 17, 23, 30, 76 and 80 of
Case No. 09-3389). It’s indifferent to the fact that Petitioner was forced to file papers
pro se, against his will, and retain counselors that (that court KNEW) he’d wished to
have discharged and replaced due to their serious fecklessness17 (see letter to court at

CM
CO
<D

QO
Q.

16 So, Petitioner can’t appeal the magistrate’s absurd decisions to a higher judge in the same
court. . . and this Court only accepts about 1% of its cases.
17 After the 6th Circuit again refused to remove Petitioner’s feckless attorneys from his case,
Petitioner was forced into a situation wherein the attorneys in question directly, and in
conjunction with the magistrate judge, destroyed another round of appeals by causing him to
file his “notice of appeal” late. And though the situation be precarious and outside of his
control {the magistrate judge forcing him to file issues in his court “himself’ against his will
all the while forcing him to retain feckless attorneys, who would later withhold the court’s
decision from him that he needed to file a “timely” notice of appeal} the 6^ Circuit was
unmoved by the faulty process that Petitioner was forced to undergo
Case No. 15-3236 at
Docs. 17 and 18}. And when Petitioner had brought it to their attention that the magistrate
judge had forced him to file papers in his court by himself without having given him a Faretta
warning — and though this be a MAJOR violation - they didn’t acknowledge said violation
and further victimized him by condoning the misconduct and abuse that Petitioner suffered
at the hands of his attorneys & the magistrate judge. To be certain, Petitioner filed a “Petition

Appendix “F,” see, also, Petitioner’s Docket for case No. 15-3236}. And now the Sixth
Circuit — while expressing “no opinion on the question whether a petitioner with
appointed counsel may take an appeal pro se . . . ”18 and having been confronted with
“facts” to the tune that (1) his attorneys are grossly feckless, (2) they tell fabrications,
(3) they perpetrated fraud upon the court, (4) they absolutely cannot have anything to
do with the filing of Petitioner’s proposed motions because they had ample opportunity

So

to do^long ago but declined, (5) the magistrate judge grossly abuses its discretion by
forcing Petitioner upon the likes of known feckless, untruthful counselors, AND
denying Petitioner his ability to obtain “other, competent counsel” and/or Next
Friends ~ insists that, even though Petitioner doesn’t have “anything” pending
whatsoever in the way of petition/motion/or-the-like seeking “actual” relief, Petitioner
has to wait until his case has been completelv_decided before he can appeal. This is
most certainly an unfair and callous decision that emphasizes anything but “fairness

CO
CO
00
CL

For Rehearing En Banc” pointing out the facts of his horrid situation, including the fact that
he was due a Faretta warning but was deprived of it and that a depravation of this magnitude
absolves him from any mistake that he may have made while being forced to file documents in
the courts on his own. But the 6th Circuit wasn’t moved or even concerned by the injustices
that had just taken place. Instead, it was content to add insult to injury by denying
Petitioner’s appeals to its court all the while knowing that his unique situation was in fact
deserving of relief. {See Petitioner’s Petition For Rehearing En Banc under Case No. 15-3236
- sorry, but I don’t have a document number for this document}.
18 If Petitioner falls for the okey-doke and allows his attorneys to file his 60(d) motion, and/or
whatever else, the Sixth Circuit can simply choose to ignore his pleas once he arrives in that
court on appeal.. . inevitably dissatisfied. This is, indeed, a Catch-22. For, he has to — pursuant
to the Sixth Circuit - begrudgingly proceed with counsel whom all participants know to be
shiftless; allow them to file an appeal (that IS winnable), but in their hands will fail for a
multitude of reasons; and once he arrives in the court of appeals, grin and bear the news that,
oh, “you can’t appeal this decision ‘yourself.’ because you already have counsel.” (See Doc. 81 at Case No. 20-3943).

between Petitioner and the State/government.” See Ross, supra. It also demonstrates
an “unnecessary and wanton inflection of pain” (see Rhodes, supra) because of said
court’s “deliberate indifference” toward Petitioner’s faulty appellate process (see
Wilson, supra), which has him securely situated in a quagmire of a situation — a Catch22, if you will — with which he finds himself unable to escape and/or find remedy.
Indeed, this Court’s intervention is much needed. Especially considering that the Sixth
Circuit always refuses to “exercise [its] equity powers ... on a case-by-case basis,
demonstrating ‘flexibility’ and avoiding ‘mechanical rulesf]’ in order to ‘relieve
hardships .. . aris[ing] from a hard and fast adherence’ to more absolute legal rules. See
Holland v. Florida. 560 U.S. 631 at 632, §l(b) of Syllabus, (citations omitted).

7.

Remand Pursuant to Holland v. Florida and the Principles Contained Therein:
Though Petitioner is wholly under the impression that he naturally qualifies for

“immediate appeal” pursuant to the dictates of Cohen v. Beneficial Indus. Loan Corp.. 337 U.S.
541, 546, as:
It (1) must be conclusive on the question it decides: “is Petitioner able tp
discharge his current counsel and proceed entirely pro se?”, (2) resolves important
questions separate from the merits: “can Petitioner represent himself independent of
counsel, but with assistance from Next Friend and/or other ‘competent counsel?’”, and
(3) is effectively unreviewable on appeal: “if forced to proceed with arrangements as
they are, his attorneys will undoubtedly destroy his ability to garner ‘relief with their
remiss, shoddy workmanship and perform the same exact way once they arrive in the
Sixth Circuit. . .grossly deficiently (and to Petitioner’s dismay, he will be denied his
ability to weigh in on the appeal to the Sixth Circuit because he has counsel currently
appointed). ”19

CO
DO
Q_

19 Because of how Petitioner was mistreated when the magistrate judge forced him into a faulty
hybrid-representation situation, he refuses to file pro se with his current counselors at the helm
of his case. See §4(d) of this Petition. Furthermore, he refuses to file pro se WITHOUT the

Petitioner is nonetheless seeking “remand,” but not just for the present instance of
maltreatment by the lower federal courts and his counsel, but rather EVERY instant of
judicial misconduct and maltreatment suffered by Petitioner at the hands of the
aforementioned.

Indeed, he’d like to utilize the “equitable ruling” of Holland (and other

applicable “equitable,” and/or “in the interests of justice” rulings) to reopen the entirety of his
federal appeals.

A.

Though this Court viewed the Eleventh Circuit’s Standard as being “too rigid,”.
Petitioner can in fact satisfy this rigid standard. Not only has he proven his counselors’ gross
negligence to “rise to the level of egregious attorney misconduct,” he offers “proof of bad faith,
dishonesty, [and] divided loyalty ...” And in addition to that, he’s also able to show “(1) that
he has been pursuing his rights diligently, and (2) that some extraordinary circumstance[,]”
(his attorneys’ fecklessness and the courts toleration thereof), “stood in his way” of him

LO
CO
OO
Q_

assistance of professional counsel apart from his current counsel. That is, Petitioner “refuses”
to forego his right to proper, professional guidance while operating in the pro se form. By the
court’s decree, he will indeed be doing without “counsel” ... if forced to rely on counsel who
have undoubtedly been proven to be feckless and untrustworthy. After all, “a party whose
counsel is unable to provide effective representation [and/or guidance] is in no better position
than one who has no counsel at all.” Evitts v. Lucev. 469 U.S. 387, 396. And who knows, the
guidance from Next Friends (or other professional counsel) just might be the “difference
maker” in whether Petitioner is able to have success while presenting his claims of tremendous
merit before the federal courts.

benefitting from a timely filed 60(b) motion, and that thsiSfi same entities stood directly in the
way of Petitioner being able to benefit from a proper appellate process. See Holland at 649.

(B)

A Call for Equity:
“The ‘flexibility’ inherent in ‘equitable procedure’ enables courts ‘to meet new

situations [that] demand equitable intervention, and to accord all the relief necessary to correct
. . . particular injustices.’” Id. at 650.
“[C]ourts [of equity] exercise judgment in light of prior precedent, but with awareness
of the fact that specific circumstances, often hard to predict in advance, could warrant special
treatment in an appropriate case.” Id. at 650.
“Equitable tolling . . . asks whether federal courts may excuse a petitioner's failure to
comply with federal timing rulesf.]” Id. at 650.

(C)

Similarities to Holland:

Petitioner, just like Holland not only wrote his attorney numerous letters seeking
crucial information and providing direction (see Docs. 23 and 45); he also repeatedly contacted
the federal courts, their clerks, and other organizations20 in an effort to have his counsel — the
central impediment to the pursuit of his legal remedy — removed from his case. And once
Petitioner had discovered that the district court had denied some of his pro se issues on a
“mistaken basis,” he first sought to have counsel replaced (Doc. 121), and then prepared his
own “Supplemental Application for Leave to File an Application for Certificate of

CO
<u

QO
Q.

20 See Sixth Circuit Case No. 09-3389 at Doc. 23 (at Attachment “B”).

Appealability” pro se and promptly filed it with the District Court. See Doc. 136. Holland at
653.
Also, as in the case of Holland, Petitioner “does not argue that his attorney s
misconduct provides a substantive ground for relief . . . nor is this a case that asks whether
AEDPA's statute of limitations should be recognized at all... Rather, this case asks how equity
should be applied once the statute is recognized[,] and it’s evinced that equity is in dire need
to remedy the current situation.” 650-51.
Petitioner’s case “does not involve, and we are not considering, a ‘garden variety claim’
of attorney negligence. Rather, the facts of this case present far more serious instances of
attorney misconduct.” 652
A group of teachers of legal ethics tells us that these various failures violated
fundamental canons of professional responsibility, which require attorneys to perform
reasonably competent legal work, to communicate with their clients, to implement clients
reasonable requests, to keep their clients informed of key developments in their cases, and
never to abandon a client. 652-53. See, §§4(a)-(d).
And in this case, the failures seriously prejudiced a client who thereby lost what was
likely bis single “meaningful” opportunity for federal habeas review of the lawfulness of his
imprisonment and of his death sentence. Id. at 653. See, again, §§4(a)-(d). Though Petitioner s
Petition was timely filed, it amounted to an “aborted effort,” nonetheless. And as such — and
inasmuch as the lower federal courts refused to replace these feckless counselors — Petitioner
has, in fact, had his “single opportunity” for federal habeas review forfeited.

r->
m
oo
Q_

And because of all of the similarities to Holland, Petitioner hopes that this Honorable
Court sees his need for the application of not only “equity,” but also the principles and
protections of the Eight and Fourteenth Amendments to the Constitution, and hereby applies
them to the effect of “Petitioner being allowed to refile his Habeas Corpus Petition.”
But if this Honorable Court doesn’t feel as though Petitioner’s case arises to the level
of “complete remand,” he then asks for remand so as the be able to present his issues of
tremendous merit (within a 60(b) opposed to a 60(d) motion)21 WITHOUT the impedances of
the magistrate judge, his feckless counsel, and the “indifference” of the Sixth Circuit. Then,
maybe Petitioner can actually garner the relief that his issues warrant.
Conclusion

Petitioner had an unfair trial, full of constitutional violations. And after his unjust
conviction he was given multiple sets of ineffective counselors to overturn his unjust
conviction. Though every set of counselors had ample ammunition (and opportunity) to
overturn his faulty conviction, they failed to do so . . . miserably. And as such, Petitioner
remains on death row facing execution for a crime that “legally” he’s innocent of. And as it
pertains to the subject matter of his “federally appointed counselors,” it must be acknowledged
that but for their misconduct, negligence, and dereliction of duty, it (firmly) stands to reason
that Petitioner would have had a favorable outcome while presenting his issues of “tremendous
merit” to the federal courts. And further aiding in the full assault on Petitioner’s ability to

00
have his unjust conviction overturned is the fact that the lower federal courts allowed these

ro
00
Q_

21 If nothing else, Petitioner has surely shown that he is deserving of being able to file his
motion under the less stringent vehicle of 60 (b) instead of a 60(d) motion.

“proven” remiss, shiftless counselors to remain on his case (though Petitioner filed motion after
motion to . have them replaced and/or simply removed), thus resulting in Petitioner’s
constitutional violations that he suffered at his capital trial being denied a “meaningful
adjudication on their actual merits.”

BOTTOM LINE:

Petitioner is in a situation wherein he finds himself being the recipient of abusive,
ox ymoronic decisions from his magistrate judge.

And on appeal to the Sixth Circuit, Petitioner

is greeted by a panel that is “selfish” in the application of “equity” - though Petitioner’s
situation clearly needs it.

And as such, it’s not even “seemingly” . .. Petitioner IS very much, indeed, engaged in
a fight to overturn his unjust conviction against (1) the prosecution, (2) the federal courts, and
(3) his own counselors. The prosecution, Petitioner understands. But to be stymied by both
the federal courts AND his own counselors in his endeavor to overturn his unjust conviction is
not only absurd, it’s also a clear and demonstrable instance of cruel and unusual punishment,
and reflects a clear violation of his Fourteenth Amendment Right to remain free against (1)
having any State or court “mak[ing] or enforce[ing] any [case/statute] law which shall abridge
[his] privileges or immunities,” (2) the “deprivation] ... of [his] life [or] liberty without due
CO
process of law,” and (3) being “den[ied] . . . the equal protection of the laws.”22 And as such,

CUD
Q_

22 It stands to reason that if Petitioner was affluent, he’d be better situated to simply discharge
one set of counselors for another. Something to which Petitioner is disbarred from doing, no
matter how shiftless his current counselors are proven to be. But, in any instance, Petitioner
has shown that his treatment from the courts has been “consistently unfair,” and not only

and in light of the aforementioned, Petitioner respectfully requests that this Honorable Court
apply unto him and his situation the “protections” of the Eighth and Fourteenth Amendments
to the United States Constitution and remand his case accordingly.

Respectfully Submitted,

Antonio Sanchez Franklin
Defendant, Pro Se

o
<L>

00
nj
Cl

violates his “equal protection” rights, but is in direct violation of the “due process clause” of
the Fourteenth Amendment as well.

